  OFFICE OF DVSPECTOR GENERAL
 CORPORATION FOR NATIONAL AND
      COMMUNITY SERVICE




           Pre-Audit Survey of
America's Promise - The Alliance For Youth
         Grant No. 0 1SPHVA001

     OIG Audit Report Number 02-30
             July 26,2002




               Prepared by:

                CNCS OIG
          1201 New York Avenue
          Washington, DC 20525
                                           Pre-Audit Survey of
                                America's Promise The Alliance For Youth
                                                              .

                                       Grant Number 0 1SPHVAOO1

                                                     Table of Contents



OVERVIEW OF AMERICA'S PROMISE .THE ALLIANCE FOR YOUTH ................. 2

BACKGROUND OF AMERICA'S PROMISE .................................................................2

OBJECTIVES. SCOPE. AND METHODOLOGY .............................................................3

RESULTS ............................................................................................................................ 4
Office of Inspector General                                                                 CORPORATION
1201 New York Avenue, NW
                                                                                            FOR NATIONAL
Washington, DC 20525




   July 26, 2002


   Peg Rosenberry, Director, Office of Grants Management
   Corporation for National and Community Service
   1201 New York Avenue
   Washington, DC 20525

   We performed a pre-audit survey of America's Promise - The Alliance For Youth, Grant
   Number 01 SPHVAOO1. The primary purpose of this survey was to provide a preliminary
   assessment of:

       The grant award and terms;
       Findings from the most recent A-133 audit;
       Fiscal or program issues raised by CNCS site visits.

    We were also to report on the recommended scope of additional audit procedures to be
    performed at the Grantee.

    Overview of America's Promise - The Alliance For Youth

    America's Promise is a not-for-profit organization whose mission is to mobilize people
    from every sector of American life to build the character and competence of our nation's
    youth by fulfilling Five Promises for young people:

        1. On-going relationships with caring adults in their lives, as parents, mentors,
             tutors, or coaches;
        2.   Safe places with structured activities during non-school hours;
        3.   Healthy start and future;
        4.   Marketable skills through effective education; and
        5.   Opportunities to give back through community service.

    Background

    The National and Community Service Trust Act of 1993, P.L. 103-82, which amended
    the National and Community Service Act of 1990, established the Corporation for
    National and Community Service.
The Corporation, pursuant to the authority of the Act, awards grants and cooperative
agreements to State Commissions, nonprofit entities, tribes, and territories to assist in the
creation of full and part time national and community service programs. Through these
grantees, members perform service to meet the educational, human, environmental, and
public safety needs throughout the nation, especially addressing those needs related to
poverty. In return for this service, eligible members receive a stipend, accidental death
and dismemberment insurance, personal liability insurance and automobile insurance,
free meals at host institutions and physical examinations.

America's Promise (AP) was founded after the Presidents' Summit for America's Future,
held April 27-29, 1997 in Philadelphia. AP is leading the effort to bring together national
organizations and local partners to embrace the shared responsibility for our nation's
children. AP has created a unique Alliance among 500 national organizations that have
committed to fulfill the Five Promises for children and youth. These 'Commitment
Makers' are partners that align some part of their missions with that of AP and commit, in
writing, to develop and implement youth initiatives that fulfill two or more of the Five
Promises. The 'Commitment Makers' include businesses, associations, and foundations
as well as service-providing entities such as faith-based organizations, K-12 and higher
education institutions, government agencies, and not-for-profit organizations.

Objectives, Scope, and Methodology

The scope of this engagement was to provide an assessment of the grant, site visit
information, as well as systems and procedures in place at the Corporation's headquarters
for monitoring Grantee's fiscal activity. The survey's primary purpose was to
preliminarily assess:

    The amount, term and grant provisions;
    The results of A- 133 audits;
    Results of CNCS site visit reports.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Grantee.

Our survey included the following procedures:

    Reviewing the grant award, its provisions, and the detailed grant proposal and budget;

    Reviewing OMB Circular A-1 33 reports and;

    Obtaining information through discussions with CNCS Office of Grants Management
    and from site visits.

Our procedures were performed in accordance with Government Auditing Standards
issued by the Comptroller General of the United States. We were not engaged to, and did
not, perform an audit of any financial statements, and the procedures described above
were not sufficient to express an opinion on the controls at the Grantee, or on its
compliance with applicable laws, regulations, contracts and grants, or the allowability of
grant costs incurred. Accordingly, we do not express an opinion on any such financial
statements, or on the Grantee's controls or compliance. Had we performed additional
procedures, other matters might have come to our attention that would have been
reported.

Results

Based on the results of the limited procedures performed, we will proceed with an
incurred cost audit of grant project period May 1,2001 through June 30,2002. The
decision to audit is based on the following:

    A 2002 site visit identified a 2001 year-end General Ledger reclassification of costs
    charged to the Corporation's grant.

    The value of the grant award for 200 1 was $7,483,000, which is considered material.

    The Grantee has significant employee turnover.

    The costs incurred on the Financial Status Reports could not be traced to accounting
    records.

    Numerous concerns about reporting, grant expenditures and time sheets were raised in
    the March 2002 Site Visit Report.

This report is intended solely for the use of the Office of Inspector General and the
Corporation for National and Community Service.



Terry Bathen
Acting Inspector General
Corporation for National and Community Service
Washington, D.C.

Copy to:

Wendy Zenker, COO
Gary Kowalczyk, Director, Planning & Program Integration
Dana Rodgers, Program Officer
